<html>
<title> - PATH TO OPPORTUNITY: JOBS AND THE ECONOMY IN APPALACHIA II</title>
<body><pre>[Senate Hearing 110-800]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-800
 
                          PATH TO OPPORTUNITY:
                 JOBS AND THE ECONOMY IN APPALACHIA II

=======================================================================


                             FIELD HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION


                               __________

                            OCTOBER 23, 2008

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov



                  U.S. GOVERNMENT PRINTING OFFICE
48-539                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001



           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
KENT CONRAD, North Dakota            RICHARD G. LUGAR, Indiana
MAX BAUCUS, Montana                  THAD COCHRAN, Mississippi
BLANCHE L. LINCOLN, Arkansas         MITCH McCONNELL, Kentucky
DEBBIE A. STABENOW, Michigan         PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         LINDSEY GRAHAM, South Carolina
KEN SALAZAR, Colorado                NORM COLEMAN, Minnesota
SHERROD BROWN, Ohio                  MICHEAL D. CRAPO, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             CHARLES E. GRASSLEY, Iowa

                Mark Halverson, Majority Staff Director

                    Jessica L. Williams, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                 Vernie Hubert, Minority Chief Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Field Hearing(s):

Path to Opportunity: Jobs and the Economy in Appalachia II.......     1

                              ----------                              

                       Thursday, October 23, 2008
                    STATEMENTS PRESENTED BY SENATORS

Brown, Hon. Sherrod, a U.S. Senator from the State of Ohio.......     2

                                Panel I

Baker, Kevin, former Meridian Employee, Jackson, Ohio............     9
Demko, Margaret, President, Advocating for the Rights of Citizens 
  with Disabilities of Southeast Ohio, Albany, Ohio..............     7
Farber, Katy, President, Highland County Chamber of Commerce, 
  Hillsboro, Ohio................................................     5

                                Panel II

Shuter, Mark, President and Chief Executive Officer, Adena Health 
  System, Chillicothe, Ohio......................................    21
Lanier, Sherrie, Development Director, Ohio Valley Regional 
  Development Commission, Waverly, Ohio..........................    23
Lewis, Marsha, Senior Research Associate, Voinovich School of 
  Leadership and Public Affairs, Ohio University, Athens, Ohio...    24
                              ----------                              

                                APPENDIX

Prepared Statements:
    Baker, Kevin.................................................    34
    Demko, Margaret..............................................    36
    Farber, Katy.................................................    39
    Lanier, Sherrie..............................................    43
    Lewis, Marsha................................................    49
    Shuter, Mark.................................................    57
Document(s) Submitted for the Record:
    Written letter from U.S. Department of Agriculture, Office of 
      the Secretary to Hon. Tom Harkin with attached fact sheet 
      on rural development.......................................    62



                          PATH TO OPPORTUNITY:


                  JOBS AND THE ECONOMY IN APPALACHIA II

                              ----------                              


                       Thursday, October 23, 2008

                                       U.S. Senate,
                                  Committee on Agriculture,
                                   Nutrition, and Forestry,
                                                  Chillicothe, Ohio
    The committee met, pursuant to notice, at 11 a.m., at 
PACCAR Medical Education Center, Kenworth Auditorium, 446 
Hospital Road, Chillicothe, Ohio, Hon. Sherrod Brown, 
presiding.
    Present or submitting a statement: Senator Brown.
    Mr. Metzger. Senator Brown, ladies and gentlemen, good 
morning and welcome to the main campus of Adena Health System 
and to the PACCAR Medical Education Center. My name is Ralph 
Metzger. I am the Executive Director of the Adena Health 
Foundation, and Senator, we are delighted that you have 
selected this new and beautiful facility for the venue for our 
United States field hearing. This is very exciting for us.
    Thank you to his staff, Jeanne Wilson and David Hodapp, for 
helping us with the arrangements, and thank you to Angel 
Chitwood here at the Center and Jenny Dovyak of our Marketing 
Department for managing all of the details.
    The PACCAR Medical Education Center is now only 7 weeks 
old. It was the result of the largest capital campaign in Ross 
County. This Kenworth Auditorium and the PACCAR name on the 
building honors the first $1 million gift, and that was from 
PACCAR Foundation. PACCAR, Incorporated, is the parent company 
of Kenworth Trucks and Peterbilt Trucks, and, of course, 
Kenworth Trucks is our neighbor right across the street.
    In this Center, Wright State and Ohio University are 
teaching 54 nursing students at the bachelor's degree level. 
The majority of these students are currently Adena employees, 
or they will be when they graduate. Current practicing nurses 
and physicians and technicians are receiving continuing 
education here at this facility. Our surgeons and physicians 
are teaching advanced skills and best practices to other 
physicians and surgeons across the region and across the 
country.
    This Center features simulation training technology using 
the most highly advanced human patient simulators to mimic over 
72,000 signs and symptoms. So students learn from their 
mistakes on mannequins before they ever touch a human patient. 
Every event, every hand wash, every step is recorded by video 
for instant feedback. Most importantly, we are showing children 
and teens in Southern Ohio that professional education and 
professional careers are available in Southern Ohio to enhance 
the quality of life and health care in Southern Ohio.
    Thank you and good day. We are very pleased you are here.

STATEMENT OF HON. SHERROD BROWN, U.S. SENATOR FROM THE STATE OF 
                              OHIO

    Senator Brown. Thank you. Thanks very much, Mr. Metzger, 
and thank you all for joining us, not just the panelists, but 
all of you that are students, that are employees of Adena, and 
that are now part of this fabulous-looking facility, and I am 
sure there is so much more, so thank you for that, Mr. Metzger, 
very much.
    Special thanks to Jenny and Angel for the work that they 
did. I know that often they do most of the work and Mr. Metzger 
gets most of the credit, but thank you. But he did credit them 
very generously, so thank you for that.
    Special thanks, too, to Commissioner Corcoran for joining 
us and Mayor Sulzer. Thank you. I have heard, Mr. Metzger, I 
have heard only good things already about this place, so 
congratulations as you embark on your first few months serving 
people of Southern Ohio.
    The hearing comes to order. This is an official hearing of 
the Senate Agriculture Committee. We have done--this is, to my 
knowledge, only the second hearing that the Senate Agriculture 
Committee has ever done in Ohio and the first one was yesterday 
in Steubenville, and this hearing will be to discuss rural 
health, as I think all of you know.
    Today, we are especially pleased to be holding the event 
not just in this part of the State, but holding it at the 
PACCAR Center, a building that came about, as Mr. Metzger said, 
through the foresight and the hard work and the dedication of 
many of the Adena staff here today. Through their efforts, we 
are sitting in one of the gems of Appalachian Ohio. Let me 
congratulate everyone that has had a major role and a minor 
role, too, in the creation of all of this.
    This building is of special relevance today because one of 
the topics that we will be covering is the lack of access to 
health care that too many in Appalachian Ohio face. The 
educators that now have an opportunity to teach here at the 
PACCAR Center are going a long way to help solve this problem. 
The students in the classrooms here today are the desperately 
needed nurses and other health care specialists that we all so 
much need in the years ahead.
    The PACCAR Center is one of the most high-tech, cutting-
edge health care education facilities not just in the State, 
but in the United States and in the world, and I understand 
that a very small portion of Federal monies were used in 
acquiring that technology. This is a perfect example of how the 
United States Department of Agriculture funding can lead to 
real change and success with huge local effort.
    I would like to thank Senator Tom Harkin, who is the 
Chairman of the Agriculture Committee, Chairman Harkin from 
Iowa, for his support in these hearings and for his leadership 
on the farm bill.
    Finally, I would like to thank our witnesses, this first 
panel, and I will introduce them shortly, and then a second 
panel which we will hear from. We will hear testimony from the 
witnesses and then ask questions and then we will do the second 
panel shortly.
    I would like to make a brief statement just about sort of 
the purpose of this hearing and what we are seeing and what we 
are hearing around the State and what you are also very 
familiar with. Small-town Ohio, like the rest of America, is 
hurting. Ohio's unemployment rate reached 7.4 percent this 
summer, the highest it has been in a decade and a half. Even 
prior to this economic downturn, Ohio still had hundreds of 
thousands fewer jobs than it had prior to the last recession.
    With aging infrastructure, with high unemployment, with 
under-funded schools, with chronic access to affordable health 
coverage, rural Ohio, and throughout rural Ohio and rural areas 
throughout our nation already face daunting economic 
challenges. For rural areas, an economic downturn like the one 
we find ourselves in now has the impact of a kidney punch after 
12 rounds in the ring.
    Over one-half of Ohio's counties are rural and there is no 
doubt these counties face significant obstacles. Of the ten 
counties in Ohio with the highest unemployment, every single 
one of them is rural. Of the ten counties in Ohio with the 
highest poverty level, nine of those ten are rural. Of the ten 
counties in Ohio with the highest percentage of people eligible 
for Medicaid, nine of them are rural.
    Federal policymakers, frankly, have not devoted enough 
attention to rural America. We squander opportunities. We 
dismiss unacceptable gaps in the kind of support that allows 
families to lift themselves out of poverty and join the middle 
class. It is time to instead invest in the tremendous potential 
that rural America holds. Investment in rural communities is an 
investment in the American economic engine and the American 
dream.
    We fought for these rural communities and small towns 
across Ohio during the writing of the 2008 farm bill. USDA 
Rural Development Programs encourage rural business expansion 
and job creation and grants to expand, for example, to expand 
broadband across rural Ohio. These programs have invested more 
than $500 million in over 120 different projects in Ohio over 
the past 2 years.
    These projects include $700,000 to build a child 
development center in Jackson County, the county directly to 
the Southeast where Mr. Baker is from; funding for dump trucks 
and road maintenance equipment for Pike County would have come 
under the farm bill, the county directly south of here; and in 
Ross County, USDA Rural Development funded 19 miles of water 
lines to rural customers worth almost $2.5 million. Rural 
Development provided $1.2 million to finance 60 units of 
affordable housing and $4 million for the construction of a new 
water treatment plant.
    These projects wouldn't have occurred without a farm bill 
and without funding for Rural Development Programs. USDA Rural 
Development funding can help communities in many different 
ways. Some comes in the form of grants to communities for water 
and sewer and public safety projects. Others provide loans and 
loan guarantees for small businesses and rural housing 
projects. These loan guarantees in particular have seen a 
dramatic increase in usage during the recent credit crunch. 
Some lenders simply won't provide funds to small businesses in 
rural housing without the additional security provided by farm 
bill Rural Development Programs. The farm bill funds so many 
programs that matter to Ohio and we have made important strides 
toward providing additional investments in rural areas of our 
State.
    As Ohio's first Senator to serve on the Agriculture 
Committee in 40 years, I will fight to keep these vital 
programs alive, to continue them, to enhance them, to ensure 
Ohioans living in rural areas receive the kind of support that 
will help them thrive. The farm bill provided a needed boost, 
but the people in small towns and rural communities clearly and 
obviously deserve more. That is why we are having this hearing 
today.
    Over the past 20 months, I have conducted about 120 
roundtables across the State--Ms. Farber was in one, Mr. Baker 
was in one recently--where I have listened to 15, 20 activists 
in the community just talk to me about concerns and ideas that 
they have about their communities. Most of those roundtables 
were held in rural Ohio.
    The kinds of questions--we hear questions, how can the 
Federal Government play a role to help rebuild small towns in 
Appalachia and across Ohio? I have heard questions, what kinds 
of investments in infrastructure are needed to revitalize our 
rural communities and make them competitive in this world 
economy? How can we support small businesses who are struggling 
in the face of the credit crunch and the uncertainty of the 
financial crisis?
    These are questions our witnesses will help us answer 
today. I look forward to their remarks and our questions and 
discussion.
    I would close by noting that Randy Hunt, the Director of 
USDA Rural Development Programs in our State, in Ohio, was 
invited to testify today. The Bush administration did not allow 
him to attend. Mr. Hunt is a dedicated and well-respected 
public servant to this State, and as USDA Rural Development 
Programs play a significant role in addressing the challenges 
rural communities face, I know everyone here would have 
appreciated hearing Mr. Hunt's perspective on the critical 
issues facing our State.
    I regret the decision of Secretary Schafer and the Bush 
administration because I don't think it is in the best interest 
of the people I serve, but today's hearing is too important to 
get mired in politics. The hearing is not about the Bush 
administration or Republicans or Democrats. It is about people 
and communities fighting to overcome daunting economic 
challenges. So it is in the nation's best interest to support 
their success, and Congress and the administration alike have 
an obligation to promote the nation's best interests. That is 
not partisan, that is simply a fact.
    So I would like to introduce the first panel and then we 
will begin statements. Please keep your statement to around 5 
minutes. If you go a little over, it is OK. Then I will ask 
questions after you are finished.
    Our first panel is Katy Farber, who is a native of Highland 
County, Ohio. She is a small businesswoman and professor at 
Southern State and President of the Highland County Chamber of 
Commerce.
    Margaret Demko of Albany, Ohio, lives in Athens County. She 
is President of Advocating for the Rights of Citizens with 
Disabilities of Southeast Ohio, Southeast Ohio Coordinator for 
Ohio Consumers for Health Coverage, and serves on the Ohio 
Development Disabilities Council. She is a terrific advocate 
for her own child and for people needing health care all over 
the State and I am particularly thankful for what you do.
    And also on our panel is Kevin Baker of Jackson, Ohio, a 
former employee of Meridian Automotives, whose workers were 
locked out a couple of years ago. Mr. Baker, along with 300 of 
his coworkers, lost their jobs. They were locked out for almost 
2 years before being laid off and then the plant closed. It is 
nice to see you again, Mr. Baker. Thank you for joining us.
    Ms. Farber, if you will begin.

STATEMENT OF KATY FARBER, PRESIDENT, HIGHLAND COUNTY CHAMBER OF 
                   COMMERCE, HILLSBORO, OHIO

    Ms. Farber. My name is Katy Farber and I am the President 
of the Highland County Chamber of Commerce and I appreciate the 
invitation and opportunity to present this information at 
today's hearing. The USDA Rural Development Programs have 
provided support to Highland County in the past and for that we 
are grateful. We are, however, in need of an increased 
assistance in light of the economic realities of today and the 
looming economic devastation of the pending DHL decision to 
close its Wilmington, Ohio, hub operation.
    The current economic downturn is affecting each sector of 
our country, but is having what many believe is a 
disproportionately negative effect on rural Southwest Ohio, and 
in particular Highland County. The issues are many and cut 
through each sector that make up our local economy.
    Local tax revenues and the fees that are collected for the 
general fund are down, limiting the ability to meet the 
increasing demands on a county and local government level to 
provide services. This severely affects the day-to-day 
operations of law enforcement, the courts, and all departments 
dependent upon both county and municipality revenues.
    From the first quarter of 2007 to the first quarter of 
2008, Highland County had the highest percentage of jobs lost, 
6.2 percent, of any county in the State, according to Job and 
Family Services statistics. The decline in employment 
opportunities and the thousands of pending job losses is 
forcing families to choose what bills can be paid and what 
available cash must be used to take care of the family's basic 
needs. Foreclosure rates continue to increase, climbing some 
300 percent over the last eight to 10 years.
    Many people are becoming desperate. Local agencies, a last 
resort rescue resource for many citizens in our area, are 
seeing increased demands for goods and services while being 
faced with lower contributions from both Federal funding 
streams and the private sector. The result is straining the 
resources and limiting the ability to help our neediest in the 
county. For example, Highland County Community Action 
Organization served 27 percent of the Highland County 
population in 2007 and has seen a significant increase in new 
families served in 2008.
    The impact on small, local businesses, those employing five 
to 15 people, is marked in Highland County. Within the last 2 
months, we have lost at least seven storefront retail 
operations because of the slow economy. Bankruptcy has closed 
the door of a small manufacturer and threatens others. A long-
established restaurant shuttered its windows, unwilling to risk 
reinvestment in upgrades when patronage continues to decline 
due to the economy. An upstart manufacturing operation eager to 
open a new facility and add jobs continues to be caught in a 
battle with EPA regulations and requirements that keep it from 
opening operation. The ongoing struggle for many small 
businesses to borrow funds for operation due to the tight 
credit market is significantly affecting commercial competence 
and growth.
    Highland County also has a large agriculture industry. 
Grain producers faced a 100 percent increase in crop output 
costs for 2008 and now face a 50 percent drop in grain prices. 
This will devastate a significant number of family farms. The 
impact will compound the current financial problems for local 
businesses.
    Beyond the economic recession that is affecting all of this 
country, and beyond the struggles we face as a rural American 
county, Highland County is bracing for the significant impact 
of an additional job loss from 20 percent of our total county 
workforce should DHL realign its Wilmington operation. Over 
1,800 Highland County residents work at the Wilmington Air 
Park, directly employed by DHL, ABX Air, or ASTAR. Add to that 
the additional job losses directly or indirectly related to the 
$54 million loss to our local economy and that situation 
becomes grim. Our hospitals, already taxed with a 9.5 percent 
increase in uncompensated care, may be pushed beyond their 
means to stay in operation when additional residents no longer 
have health insurance. There will not be a social service 
agency or municipality and county operation that will not be 
affected by this financial catastrophe.
    When we examine the greatest areas of needs within Highland 
County, they all certainly lead to the all-encompassing 
category of economic development--the ability to attract and 
retain business and industry to provide good-paying jobs for 
our citizens, stabilize the local housing market, support the 
education systems throughout the county, and contribute to the 
overall tax base of our local communities and Highland County. 
To compete for business and industry opportunities, we need to 
be able to level the playing field.
    Rural Highland County, like its neighbors, needs assistance 
with six specific areas: Community infrastructure, broadband 
availability, health care access, education, transportation, 
and marketing. My written testimony details specifics about 
these challenges and I invite everyone to review those points.
    Without the continued support of the USDA Rural Development 
Programs, Highland County will not be able to weather the storm 
that we currently face. In Highland County, as in many parts of 
rural America, economic development is the difference between 
the hope of prosperity or continued decline. I urge this 
committee to work to increase the investment in rural 
initiatives that support the infrastructure upgrades, health 
care access, educational support, broadband capabilities, and 
specific economic development programs, including the 
marketing, that connect rural entities to the opportunities for 
commercial and industrial development.
    Thank you.
    [The prepared statement of Ms. Farber can be found on page 
39 in the appendix.]
    Senator Brown. Thank you, Ms. Farber.
    Ms. Demko.

  STATEMENT OF MARGARET DEMKO, PRESIDENT, ADVOCATING FOR THE 
RIGHTS OF CITIZENS WITH DISABILITIES OF SOUTHEAST OHIO, ALBANY, 
                              OHIO

    Ms. Demko. Good morning, Senator Brown. I am honored to be 
able to speak with you here this morning in Chillicothe.
    As you mentioned, my family lives in Albany, a small 
village in the west corner of Athens County. We as a family are 
one of the 8,900 families in Athens County that do not have 
access to health care coverage. My daughter with Down Syndrome 
does not qualify for Healthy Start, and as a family, we are 
unable to purchase private coverage due to several preexisting 
conditions.
    When I speak about my family's access to care, obviously, I 
speak first about Emily. She needs intensive speech, physical, 
and occupational therapies to help her reach her best 
potential. When I looked for these facilities in the Athens 
area, I found only Ohio University for physical therapy and 
speech, and there the therapists are grad students who change 
every 3 months as their school schedules change. This was not 
the answer for Emily and she still needed occupational therapy 
for her fine motor skills. Those skills would be being able to 
hold a pencil, turn the page of a book, put a sticker on her 
shirt.
    As a family, my husband and I looked into Nationwide 
Children's Hospital Therapy Services in Columbus. While a long 
way from home, we knew this was the best place for her to get 
the start she needed toward reaching her best potential. We 
signed her up for therapy, taking on the out-of-pocket expenses 
of each therapy, but also the total cost of getting there and 
being there for the day. There was 77 miles of travel one way, 
with gas at astronomical rates. We sold our van, bought a 
compact car to try to fight the costs. I tried packing a lunch 
for us since the costs of eating out were also hurting our 
budget. But my daughter has particular eating issues, so 
packing food became too difficult as she grew.
    All in all, the trips each week would cost us over $500 
when all therapies, food, and gas were added together. I 
consider my family to be one of the lucky ones, since we had 
the gas money to get where we needed to be for Emily and we 
were able to essentially run a tab of therapy bills at 
Children's Hospital. We kept this up for over 2 years until 
school-age therapy services were able to kick in.
    We also were able to take her to Nationwide Children's 
Hospital for developmental disability clinic appointments, 
where an issue with her eyes was caught, a blood test to rule 
out thyroid disease was completed, as well as the need for 
orthotic shoe inserts was found. This essentially is a one-stop 
shop for services for children like Emily. There are clinics in 
rural health departments, but there are no areas that have all 
the tests be able to run that day on the spot.
    My daughter is not the only one who has had issues 
accessing the care she needs in her own backyard. My husband 
has a history of severe kidney stones. When he had an attack 
this July, I chose to drive him 35 miles right here to Adena 
Medical Center when he was working right around the corner from 
an emergency clinic. Someone asked me why I would choose to do 
so. I couldn't imagine the bill that would come to an uninsured 
person from a for-profit clinic who has no program to assist 
financially. I ran a huge risk of my husband passing out or 
having something more serious happen to his kidneys, but I knew 
that as a family, we could not take on a bill of several 
thousands of dollars and be expected to pay it within 30 days, 
as had happened to us in the past.
    Senator Brown, I am not the only family that lives in 
Southeast Ohio that has trouble accessing health care and 
health care specialists. I live in an area where two adjacent 
counties, Meigs and Vinton, do not have an emergency room or an 
emergency clinic within 25 miles. Meigs County does not have 
911 services. The vast amount of these counties are remote 
areas where most folks do not have the most basic of services, 
let alone the gas money or proper transportation to get to that 
life-saving clinic.
    Yet another health care issue that hits Southeast Ohio hard 
is dental care. There are very few dentists. Athens has some 
dentists, but some won't take Medicaid, some won't take 
uninsured without full payment, and there are no pediatric 
dentists at all. Again, we have to head north toward Columbus 
for that service.
    This is a health care issue that can reach well beyond oral 
health. When there are oral health issues, sometimes there is 
missed work or school, systemic infections, and many other 
serious complications. All that aside, it is always harder to 
move forward with a job interview or with a school presentation 
if you are missing teeth or experiencing extreme halitosis.
    When we talk about access to services, there are so many 
more things to consider than the immediate health of the 
children and the adults in my hometown areas. If Emily doesn't 
get speech therapy this week, it won't hurt her immediately. 
What it will do, however, is potentially slow down her growth 
in her ability to speak. Not having adequate occupational 
therapy will not harm her immediately, either, but eventually 
her inability to stick a sticker on her shirt, stack blocks, or 
color with a skinny marker may turn out to be something that 
stops her from reaching her potential.
    Simple skills like this are building blocks for life skills 
she would use every day for the rest of her life. She needs 
these skills so she can speak intelligibly enough to be able to 
ask for what she wants, write her name, turn the page of a 
book, punch the buttons on a calculator to balance a checkbook, 
or even hold down a good job. All these services are connected 
to her future. Many other families are also experiencing the 
same, yet are unable to reach the services they and their 
children need.
    I work every day in my line of work to find and talk to 
families just like mine who are having issues accessing health 
care. I assure you, Senator Brown, that my family is not 
unique. I get calls almost every day from folks much worse off 
than my family that are trying to figure out what they can do 
to get their family the care they need without the ability to 
travel outside the area. I have made this work my life passion, 
to listen to, advocate for, and try to direct to the right 
people these families that are in crisis with their health. I 
am sure that it is reassuring to talk to someone like me who 
also lives these issues every day, but we need to do more than 
talk. We need to find a solution to the access and cost issues 
in this great and beautiful part of Ohio.
    As a family, we make hard choices every day about our 
health care and we provide everything we can for our daughter 
and for each other since we know that healthy parents raise a 
healthy child. What we need is a government and a President on 
our side to help us. We are willing to put into the system what 
we can. What we need is the door to be open and make sure 
health care is affordable, achievable, and accessible, not only 
for my family, but so many thousands just like us.
    Thank you.
    [The prepared statement of Ms. Demko can be found on page 
36 in the appendix.]
    Senator Brown. Thank you, Ms. Demko.
    Mr. Baker.

 STATEMENT OF KEVIN BAKER, FORMER MERIDIAN EMPLOYEE, JACKSON, 
                              OHIO

    Mr. Baker. I would like to thank you, sir. It is an honor 
and a privilege. April 21, 2006, 300-plus workers at Meridian 
Automotives here in Southeast Ohio were locked out of their 
job. Some people had worked there over 30 years, most right out 
of high school. There were many married couples who both lost 
their job at Meridian. Most of us had family working in this 
factory. I myself had seven relatives who worked at Meridian 
Automotives.
    We worked 6 days a week mandatory and the maintenance crew 
7 days a week. We were all dedicated workers, responsible 
workers who took pride in their job. April 21 changed that 
immediately. Our lives changed when the company brought in 
immigrants to do our job, some found to be illegal.
    We stood on the picket line for the better part of 2 years. 
Along the way, many tragic events would unfold. Pretty much all 
of us began to lose our self-worth. The pride we had in working 
6 days a week and providing a living for our loved ones was now 
starting to die off. After a year on the picket line, a beloved 
union brother took all he could take and ended his life with a 
gun. None of us had seen this coming, especially from this man.
    Families started to lose their homes within the first year. 
Depression set in with many of our union brothers and sisters. 
Pretty much everyone lost their health care unless provided by 
a spouse not working at Meridian. To this date, many of the 
workers have not found work and the ones in their 50's and 60's 
may never find a job in this area or affordable health care. 
Some of the people who lost their job at Meridian now work as 
far away as Cincinnati, and for some, the coal mines of West 
Virginia.
    What we need, Senator, is broadband in our area so people 
can search the job sites and educate themselves on what we 
could be doing in our area and the surrounding area to provide. 
Many of us have family right here in Southeast Ohio and don't 
want to move to the city just to have high-speed Internet or 
more job opportunities. We need jobs here in our part of the 
State and we need them now.
    Some of our union brothers and sisters have gained 
employment at the local Wal-Mart starting at minimum wage or 
just above that. Many of us were educated right here in the 
Appalachians, and for many of us, we are behind the times when 
it comes to joining today's workforce. We live in the richest 
country in the world, but right in the heart of it all are the 
Appalachians, where I have witnessed the destruction of over 
300 lives.
    We need help here and we need it now. We are the heartland 
and we want to work. We need jobs in our area and we do need 
them now. We need affordable health care and someone to help us 
with our bills so we can go to school and get the education we 
need to survive in today's world, and we need job training. 
Broadband would help with that, with the online degrees and the 
online schooling.
    I don't want to see anyone else lose their home or, even 
worse, lose their life because of this. We are asking for your 
help here in the Appalachians of Ohio. We need work. We need 
our self-worth back. And we want to work. We know what it takes 
to survive and we need your help to regain our belief system in 
not only ourselves, but in our leaders and our elected 
officials. Please bring our area up to date with broadband and 
bring businesses to our area. We believe we can do anything, 
but we do need your help getting started once again. There are 
simply no jobs here in Southeast Ohio and these are desperate 
times.
    Senator Brown. Thank you, Mr. Baker.
    Mr. Baker. Thank you, sir.
    [The prepared statement of Mr. Baker can be found on page 
34 in the appendix.]
    Senator Brown. Thank you for being with us.
    All the statements will be in the official record. If any 
of you wants to add anything--you had said, Ms. Farber, you 
have a written statement that may be longer. If you can just 
let us know all that. Joe Shultz in the second row there staffs 
the Agriculture Committee for us. He is joined here by Beth 
Thames, Dave Hodapp over here, and Jeanne Wilson, who may still 
be outside in case anybody else arrives late.
    Thank you all for your testimony.
    Ms. Farber, let me start with you. You had said that 27 
percent, if I heard you right, 27 percent of people in Highland 
County have gotten some services from Community Action. Would 
you outline those? I know LIHEAP and some nutrition. Tell me 
what exactly that is.
    Ms. Farber. It goes the gamut of whether it is heat 
programs, there are Gator [ph.] programs, a dental assistance 
program, just things that supplement our social services system 
in the State, but it is also financial counseling, different 
things that homeowners can come in to access. Ohio now has a 
benefits bank and Community Action is completely--I think they 
have 27, or 20-some trained staff members that can reach out, 
and some of the services involve connecting so that people who 
have never had to come for help who we are seeing come in the 
lines more than ever know where they can go.
    But the President, or the Director of Community Action--we 
are caught between a rock and a hard place because some of the 
people we--she has to almost say, ``You are not poor enough. 
You are not poor enough to access the programs that we can 
offer you,'' and almost have to say, try another 90 days. So we 
are forcing people just to go down to the lowest levels without 
giving them some assistance along the way.
    Senator Brown. So is your recommendation that Community 
Action be given sort of a wider scope of ability to serve, I 
mean, not just more appropriations perhaps, but given a wider 
range of what they are allowed to do?
    Ms. Farber. Well, that would be wonderful, yes.
    Senator Brown. Well, what specifically would you----
    Ms. Farber. Specifically--you know, you kind of caught me 
off guard here, Senator, because I can't really speak for all 
of the Community Action Programs, but yes, I think that the 
scope needs to be--the income levels at this point, because do 
we have to let everyone, especially those who are--there are 
people losing their jobs in the Wilmington Air Park because 
they can't afford--they have not been laid off or warn noticed. 
They can't afford to keep going to work because the hours have 
been cut back so dramatically. So now they are coming to look 
for assistance. Well, their previous 12-month employment, their 
tax records show that they are earning a good living. So you 
can't give them that money right now and they are----
    Senator Brown. And come next year, they wouldn't be earning 
a good living. I mean, they are not now, but it would show 
then. Are there significant, already, ASTAR, ABX, and DHL 
employees that have lost their health insurance?
    Ms. Farber. There are significant and growing numbers every 
day of those employees who are being forced to walk away from 
the job because they can't afford to stay there for their 
families.
    Senator Brown. So where are they going?
    Ms. Farber. Some are leaving. Some are just picking up 
part-time jobs. But yes, if they walk away, they have no 
unemployment. I mean, there is no compensation.
    Senator Brown. So DHL--my understanding, and I know a lot 
of people in Clinton, Highland, Adams, Brown, the whole region, 
Montgomery, Clark, Green, that work there. Some number of them, 
I know, are farmers that work whatever number of hours to get 
health care. What is that requirement? How many hours must they 
work to get insurance? Is it 20 or 30? It is----
    Ms. Farber. The formula--it was about 28. The formula is 
changing, of course, as the scene changes up there, but it was 
mostly night sort operations, so it would be four or five 
nights a week, five or 6 hours a night, depending on the load 
required, and then they would have full health care benefits.
    Senator Brown. So the impact obviously of closure of those 
8,000 jobs would be as heavy in rural areas as it is in cities 
and communities, right?
    Ms. Farber. The exposure--the estimated exposure for this 
closure, if we will call it that, to the health care systems in 
the immediate Highland, Fayette, Clinton region is $63 million. 
That is what it will take out of the health care system for 
those uninsured.
    Senator Brown. What is the Chamber of Commerce doing and 
what is the community doing as the Governor and I and others 
fight this job loss? We are not giving up yet and it is 
definitely not over yet. But what--and as I think you know, we 
have gotten someone from the Department of Labor and we have 
gotten some people in the administration--the Bush 
administration has been cooperative on this--to prepare if that 
happens. What are you doing? What is the Chamber doing? What is 
the community doing overall in Highland County specifically on 
preparing if this job loss happens?
    Ms. Farber. Since the beginning of June, we formed our own 
local, and I shy away from the term ``task force'' because it 
just--but we have our own local group that works closely with 
the official DHL process of local communities, but on our own, 
we are making plans. We have the faith-based community 
involved. We have talked to our lenders as a group, our health 
care providers, trying to get them to lay on top of our current 
situation in the economy what this will mean. We have got to 
exist. Our county has to make payroll. We have to keep our 
courts going, our law enforcement. So we are reaching out to 
try to build the reality that could come to us very soon.
    The Economic Recovery Coordinator that we are waiting to 
come, that EDA has funded, we are trying to align--the Chamber 
is trying very much to work with the county commissioners and 
other entities to align an economic development strategy that 
will be able to take advantage of this person who is helping us 
recover in the area to attract and retain.
    Senator Brown. It strikes me that--I mean, I have seen good 
cooperation among the commissioners in each county with each 
other, so this is sort of two-pronged, if you will. One, what 
do we do to help people that are losing jobs in terms of 
providing services, and second, what do we do to grow the 
economy to displace as many of these jobs as we can with other 
kinds of jobs. So you feel comfortable that proper attention is 
paid to both?
    Ms. Farber. We are getting there. We can use all the 
support we can get.
    Senator Brown. No, I understand.
    Ms. Farber. And expertise. You know, we are not really 
high-end at this. We are a county that has no four-lane access 
and we have a very limited budget. So any resources and 
expertise that can come to the table to help us plan for the 
future--we will have to take care of the people who are--our 
county residents that are caught in this, and I believe that we 
our county can rise up to do it because that is the way we do 
it in Appalachia. But for the future, we need to be able to 
compete with everybody else who wants businesses to come to 
town. So that is, I think, in the pipeline and we are aligning 
to that and we just hope that it continues.
    Senator Brown. I have noticed from DHL, ABX, and ASTAR that 
it is not unlike Meridian, I mean, much bigger, but not unlike 
Meridian in that a lot of husbands and wives both work there. I 
saw what happened in Meridian when husband and wife both lost 
their $13 or $14-an-hour job and kids couldn't go to college 
then and kids stopped right at the end of the semester and all 
of that.
    One last question. What do you make of the delay in not 
signing the agreement between DHL and UPS?
    Ms. Farber. I think a good business proposition is not 
looking so good anymore perhaps, frankly.
    Senator Brown. Is that cause for optimism for us?
    Ms. Farber. Not necessarily.
    Senator Brown. OK.
    Ms. Farber. To be candid, I don't think so. I just want to 
segue back just 1 second to something you said, husbands and 
wives and families. I made a call to our domestic violence 
agency that covers both Clinton and Highland County in our 
case. They have already seen a 20 percent increase in cases 
since the May 28 announcement and nothing has really happened, 
because the people who had been warn noticed have been given 
severance packages. They are entitled to unemployment 
compensation. They have some assistance. It is the strain and 
stress of wondering when the shoe is going to drop.
    Senator Brown. A 20 percent increase in domestic violence 
reported cases since May. That is Highland County only, or that 
is----
    Ms. Farber. That is Clinton and Highland, and it is 
predominately Clinton. But they have three times as many--their 
workforce is three times as affected there.
    Senator Brown. Are you prepared, and I am going to ask Mr. 
Baker this in a moment, too, but are you prepared for the 
mental health counseling and all that? Are the agencies in 
Highland and Clinton, the two counties I guess you know best 
about this, are they prepared for the onslaught?
    Ms. Farber. They are trying.
    Senator Brown. OK.
    Ms. Farber. They are at the table. We talk very openly 
about what we are going to need. And again, they are stretched 
because of cuts in funding as they are, and the people that we 
are going to need to help don't have any money in their 
accounts to pay for those services.
    Senator Brown. OK. Thank you. Thanks for your service.
    Ms. Farber. Thank you.
    Senator Brown. Ms. Demko, thank you for telling your story, 
and every time I have heard you tell it, it is so moving. Thank 
you for that.21If you have a child with disabilities and you 
aren't as worldly as you are, say, and you aren't as 
knowledgeable about this and you don't have as many connections 
as you have built over the last year-and-a-half since I first 
met you, year-plus, where do you start? If a parent, a couple 
of parents have a child that is disabled and they are looking 
for help and they don't know Margaret Demko and they don't know 
people in the county seat, where do they start? What is the 
first thing they do?
    Ms. Demko. I think the first thing they are going to do is, 
sadly, sometimes Children's Services ends up at their doorstep 
because someone sees that they are not helping their child. And 
then possibly Help Me Grow will get involved, and through Help 
Me Grow, they tend to find services for them, and that is 
really Help Me Grow's job, at least in our county, is to help 
these folks walk through the system and figure out who it is 
they need to contact next, which district are they in, and 
which school district can help them, what services are 
available for them right now.
    Before I started looking on my own, when Help Me Grow came 
to my home, they didn't know where to send me for speech 
therapy. They didn't know where to send me for physical 
therapy. And they found OU and it just wasn't the right fit for 
us. And so I am afraid that what happens is these kids don't 
get the services that they need until they are school-aged 
because then the school finds the problems. The school calls 
home and says, we need to have an Individualized Education 
Plan, or an IEP, and by the way, we are going to put your child 
into services. We are going to put them into speech therapy.
    But in our district--in Athens County, there are five 
school districts, not including Athens City Schools, and there 
is one physical therapist, one speech therapist, and one 
occupational therapist to serve all of the children with 
disabilities or needs in that entire county. My daughter gets 
less than 20 minutes of therapy a week, and most of that is 
group therapy because there are three other children in her 
class that need the same therapy services.
    So I am not sure exactly where these parents go. My hope is 
that they start to look and they start to ask questions, 
because broadband is not available in a lot of the areas, so it 
is not easy to just jump online and take a look and try to find 
where they need to go.
    It is scary. I have met families who have just let--they 
didn't realize there was a problem until they got to school, 
and then sometimes some of those problems are harder to 
overcome and harder to break through when you start at age 
five, when they could have been in school at age two-and-a-half 
or three, because there are services available.
    Senator Brown. When did you start with Emily?
    Ms. Demko. I fought to get her into school. This is her 
first year that she is in school. She is three. She will be 
four on Election Day. And I fought to get her in school. I 
fought eight different child care providers to allow her to 
attend half an hour a day so that she could get socialization 
programs, because there are no play groups or places that 
accept children with disabilities in our area. I finally found 
a church that was willing to let me come in, but it was very 
strict rules and lots of questioning and issues with her having 
a disability. And so I found someone who welcomed me in Albany. 
So I started this past summer with her going 3 days a week. But 
now she is in public schools.
    Senator Brown. So the biggest, it sounds from piecing 
together what you said, the biggest hole in coverage and care 
and help for children with disabilities is prior to their first 
year in school. That is when we just--our society doesn't reach 
them very well.
    Ms. Demko. That is my experience.
    Senator Brown. That is your experience.
    Ms. Demko. That is my experience, being that she is only 
four. However, with folks that I work with, I also see a huge 
gap happen after they are out of school, because what happens 
to these folks once they are 18? Where do they go? What do they 
do if they don't qualify for sheltered workshop or they don't 
qualify for any of the other programs that the county might 
have? What happens to those folks then? Are there social 
support networks? Do those things happen? I don't have the 
answers to that because I am dealing with the early childhood 
situation.
    Senator Brown. And I know the fear--I have talked to a lot 
of parents--the fear they have that they are going to go before 
their disabled child----
    Ms. Demko. It is a huge fear.
    Senator Brown. and just the fear that you live with your 
whole life, I assume.
    Ms. Demko. It is a fear that my husband and I have. What 
happens down the lane, because we don't have any other 
children. So what happens to her? What support network is out 
there to help take care of her if she is able to be 
independent, which that is my hope and she is on that road, but 
she is still going to need some support. And who is it, and is 
that program going to be funded in 16 years when she needs it, 
or however long that takes? It is a huge fear.
    Senator Brown. Can you imagine and try to share with us 
what Emily would be like today if she hadn't had the early 
intervention you did? Can you contrast that? Can you see that 
at all clearly----
    Ms. Demko. I can----
    Senator Brown [continuing]. By looking at other children 
and looking at her progress and all? Share that with us.
    Ms. Demko. I can. It took me 13 months to come to grips 
with the reality that I had a child with a severe disability, 
and during that 13 months, I did not have her in any program by 
choice. I was in great denial. She was not sitting up. She was 
not doing those developmental milestones that she should have 
been doing by the age of 13 months.
    When I started looking into services and getting the 
services, that I finally pulled myself up by the bootstraps and 
said, this is what she needs, she walked before she was two, 
which is not a feat--it is a huge accomplishment for a child 
with Down Syndrome. She is only 36 inches tall at almost 4 
years old and she walks without tripping. She walks without 
braces. She does things that I was told she would absolutely 
100 percent never do.
    Senator Brown. And that would not have happened if you had 
not done----
    Ms. Demko. I don't believe it would have. I don't believe, 
if I had not went out there and looked for the services that I 
needed and found what I needed and found the right answers. You 
know, it was because of asking questions that I put myself on 
the board of Developmental Disabilities. I found out about the 
Developmental Disabilities Council in Columbus. I needed the 
answers and I wanted access to services for her because she 
deserves that and she deserves as much access to everything 
that she needs to make her gain to her best potential.
    She right now uses about 75 vocabulary words and over 100 
signs, sign language, American Sign Language, and I just don't 
believe that that would have happened if we had not had some of 
the intervention and the access that happened with Nationwide 
Children's and with some of the local folks that just talked me 
through things.
    So I think I would have a 4-year-old who would be very 
disabled, still wearing the braces that she started wearing, 
possibly not chewing and eating the way that--you know, she 
eats just like every other little 4-year-old, hot dogs and 
chicken nuggets and what not, and I don't believe that all of 
that would be happening for her today.
    Senator Brown. She is a lucky little girl to have you as a 
mother.
    Let me ask one other question a bit different from that.
    Ms. Demko. Sure.
    Senator Brown. It strikes me that one of the biggest gaps 
or holes or problems in our health care system is the lack of 
availability, particularly in rural Ohio, but also inner-city 
and also any kids that are relatively low-income, is the hole 
in dental care and the effect that that has on--there is a 
clinic in Cincinnati, a federally qualified health center, that 
has done a lot of work. They have expanded their coverage, if 
you will, to dental care, and mostly in low-income areas. One 
of the things they have done is working not just with children, 
but working particularly preventive care with children.
    They showed me pictures 1 day of a young, very handsome 
young man that had just found his first job. He was 22 or 
something. And they showed a beautiful smile, and they showed 
the same picture of this young man before he had dental work, 
and he had terribly discolored teeth, missing teeth. They just 
talked to me about his difficulty in finding a job when he 
looked that way versus after his surgery. I mean, it just gives 
you such impetus. We have got to do better with children's 
dental care.
    Talk to me about disabled children's access to dental care. 
Is it even more severe than low-income children generally 
getting dental care?
    Ms. Demko. Generally, yes, because there is more challenges 
that you face with a child with a disability. They may not 
understand what is happening when someone comes at them with 
the instruments. It may be difficult to hold them down or to 
restrain them. There is not a dentist near us and I am ashamed 
to say that Emily has not seen a dentist for several reasons. 
First, because I just don't think she can handle--I don't think 
I can find a dentist that can talk to her----
    Senator Brown. You would need a pediatric dentist, for 
sure----
    Ms. Demko. I would need a pediatric dentist, for sure, and 
I would need someone who would have had experiences with a 
child that small with a disability, a cognitive disability. You 
know, I just don't--everything becomes more complicated when 
you throw in a disability, whether that be cerebral palsy or 
Down Syndrome or autism. Everything becomes--there is another 
stumbling block to get through. And sometimes--you know, there 
are some doctors and dentists who will not accept a child with 
a disability because they don't have the experience and they 
don't want to deal with that.
    So not only would we have to go--from Athens, Pickerington 
is the closest dentist. I am not sure how many miles that is, 
probably about 60 miles. That is the closest pediatric dentist. 
From there, then you would have to go to Children's.
    When I was at the developmental disability clinic, they 
actually told me that they would possibly have to put her under 
some type of sedation in order to get the dental work done, or 
even looking and cleaning her teeth, and I am not sure that I, 
first, want to take on that. That is a huge expense, to put a 
child under sedation, but it is also a huge risk to put a child 
under sedation, and so it is very--there are definitely some 
more things that have to happen when you have a child with a 
disability. You have to explain it and sit down with it and 
figure it out, and I think that there may not be many dentists 
that have that kind of wherewithal.
    We also have FQHCs in our area and they have expanded into 
dental care in Meigs and Vinton County and they have seen a 
huge up-rise in how many folks come to see them.
    Senator Brown. Thank you.
    Mr. Baker, I first apologize that some of the questions I 
asked you at the roundtable, I may ask similar questions of you 
because I want your comments on the record, if you would.
    When the 300 of you were locked out in 2006----
    Mr. Baker. Yes.
    Senator Brown [continuing]. What were you told? Did the 
community reach out in terms of mental health services, in 
terms of food banks or Food Stamps, in terms of what options 
you had for health care? Did you personally, and you said you 
had several family members there and other coworkers, did you 
get anybody reaching out to you much?
    Mr. Baker. Well, mostly, it came on the picket line, people 
coming by giving money, giving food. As far as the reaching out 
for mental health, no, that was not there. I don't know why. 
Like I told you in my statement, we had a man who took his 
life. He went out trying to find other work. He was in his 50's 
and just he couldn't take it and he ended his life.
    Senator Brown. Well, you told us at the roundtable how he 
loved his job.
    Mr. Baker. He did. He loved his job and he was a good 
person, too. He was a deacon in his church and just a good man, 
you know, the kind of guy that whistled while he was at work, 
whistle while you work. He was just a good man. And it was very 
tragic, because I knew him personally. I knew his kids. He was 
a wonderful father, a wonderful person. To think that it got so 
bad for him mentally that he would end his life, it still 
troubles me today because I see it in other people that worked 
there. I see them defeated. I went through a bout of it myself. 
I went through disbelieving in the system. I didn't understand 
how a company could just up and leave with really no recourse. 
It is like they just kind of got away with it.
    Senator Brown. So they first--in the middle of the 
contract--you are a steelworker, right?
    Mr. Baker. Yes, a steelworker.
    Senator Brown. They locked you out in the middle of the 
contract, brought in replacement workers, and then over time 
then shut the plant down a year and a half later, or 2 years 
later.
    Mr. Baker. Well, first, they replaced us with immigrants, 
if you don't mind, and then after about 2 months of that, 
because we were told that they had to have translators for the 
people they had brought in, and that wasn't working out, so 
after about--I think it was about 60 days, they started hiring 
locally, and even some of the local business owners sent their 
workers in, construction, to actually help this company finish 
up and move out.
    It was very discouraging to see the staples of our 
community actually help this business finish and leave, you 
know. It is like we didn't matter anymore, the 300 people that 
were probably using these construction companies to do things 
for them, hiring them out, and the local businesses that we 
were all a part of by being in that area. Some of them turned 
on us. Now that company is gone and those staples of the 
community are still there, the ones that helped this company. 
Some of them sent their maintenance workers in to help them 
tear down the presses, to get the presses out of the factory.
    It was hard, because I have known these people myself. I am 
40 years old and I have known a lot of these people there most 
of my life. To see the ones coming in and out of the picket 
line and telling us the things--I have kids, I have this, I 
have that. It was discouraging.
    Senator Brown. I remember at the picket line 2 years ago, 
the busses were either painted--the windows were either painted 
black----
    Mr. Baker. Yes, painted.
    Senator Brown [continuing]. Or there was something black 
over them, a curtain or something, or paper or whatever. So 
later on, you knew who was crossing the line and you knew who--
--
    Mr. Baker. Yes. After a while, we began to know. Yes, I 
knew----
    Senator Brown. And they were people you grew up with?
    Mr. Baker. I would say as many as 70 percent of them, local 
people----
    Senator Brown. What are they doing now, those replacement 
workers?
    Mr. Baker. Some of them were actually--you mean the people 
that replaced us?
    Senator Brown. Yes.
    Mr. Baker. Some of them were actually even granted 
unemployment benefits, which, I mean, I don't see how that 
worked. But they didn't go through the rigorous beforehand, the 
drug tests, the--it was just a lot of training involved to do 
what we did. We ran big presses and they were just bringing 
these people criminals, like I told you, immigrants, anybody 
that they could get in that building, and some what I would 
have thought were good people beforehand. They just were 
replacing like we were nothing. Like I said, some of us had 
been there--well, I was there 10 years, but I have got a 
brother-in-law who was there 25 years, other relatives that 
were there as long as 30 years.
    Senator Brown. They were making $12, $13, $14 an hour?
    Mr. Baker. We were up to just over $14 an hour.
    Senator Brown. With a 401(k)?
    Mr. Baker. Yes, a 401(k).
    Senator Brown. And some decent health benefits?
    Mr. Baker. Yes. The health benefits were good. They did 
diminish over time because the company was originally Goodyear, 
and Goodyear is a bigger name, bigger business. And then 
another company called Cambridge bought it. It was only around 
a couple of years. Things started to diminish starting with 
them. And then when Meridian took over, they basically wanted 
rid of our union. They wanted to get rid of the 401(k)--
matching the 401(k), it was. The treatment changed. We went 
from being able to help each other, having steak dinners to 
raise money for someone that might be having trouble in the 
plant, to when Meridian took over a lot of that did go away. 
They didn't support us as much as Goodyear did, if that makes 
any sense.
    Senator Brown. It does. Let me ask one more question. You 
said at the beginning, when you talked about Mr. Parker and--
that was his name?
    Mr. Baker. Yes, Steve Parker.
    Senator Brown [continuing]. And how much he liked going to 
work. Talk to us about that. One of the things I think the 
public misses and that I hear more and moire in these 
roundtables and just talking one-on-one to you is people's 
sense of self-worth. When a plant closes, it is not just loss 
of income, loss of health care, family problems, communities 
having to lay off firefighters and police, as Ms. Farber said, 
what happens to the whole income of the----
    Mr. Baker. It is like dominoes. It just----
    Senator Brown. But even more than that, what I don't think 
we think about enough is sort of people's self-worth, that work 
is such an important part of our lives, no matter our job. Even 
if we don't always like our job, it is still such an important 
part of our lives. Talk about your sort of feelings and what 
you saw from others as they lost their jobs and as they were 
locked out----
    Mr. Baker. Well, immediately, I started seeing people lose 
their homes. I know a family of four that lives in a camper on 
his mother's property because he couldn't keep up with his 
bills. He is still living in that camper, two-and-a-half years 
later, on his mother's property. Coincidentally, his mother 
retired from that company.
    But with Steve, like I said, I mean, he brought me and my 
wife firewood while working. He was just a community man and a 
really good man. He whistled gospel songs while he was loading 
the wood out of his truck and stacking it for us, just a 
friendly man. To think that he went from that to putting a gun 
to himself and shooting himself is hard to me really to fathom. 
I can't even imagine where he must have been at that time.
    I do wish he would have reached out to us. I was told that 
he did reach out to get help in like a mental treatment 
facility and they put him on medication, and I guess the 
medication just made him feel weird. That is what his family 
told me, that it just kind of made him feel weird. Within 2 
days of coming out of that facility is when he took his life. I 
do wish he would have reached out, but he had so much pride, I 
don't think he wanted anyone to know how much he was suffering. 
His son has taken on a business and his daughter is a nurse. I 
mean, he was a good father. You get that stuff from having a 
good support group, and that is what he was, was a support for 
his kids. Not having that, I told them, I want you to know how 
lucky you are to have had such an, if you don't mind, an 
awesome father, because I didn't have that. I never had that 
and I have always envied that. To see where they are because of 
that support system was a beautiful thing and I didn't want 
them to focus so much on his loss as the fact of how lucky they 
were to have had such a great father. I envied him for that. I 
don't know if envy is the right word, but I sure would have 
liked to have had that myself. But Steve was a good guy.
    I see families losing their health care, like you mentioned 
there. Some of the people had to pull their kids out of college 
because they couldn't afford the next semester. I am still 
seeing that. I talked to a man the other day who is in his 
50's. He can't find work. No one wants to hire him. I am seeing 
that a lot still in our area. A lot of people cannot find work, 
especially the older ones.
    I myself am 40 and I am having trouble finding a good solid 
job. Telemarketing, I am doing some carpentry work. I lost my 
self-worth, too. I felt good, even, like you said, I didn't so 
much like it, but there was a pride in getting up and working 6 
days a week that they just took away from us in the blink of an 
eye. It has been very devastating for the community, even the 
pizza shops and the things right around Meridian there. They 
have told us they are hurting now because we don't work there 
anymore and the building sits there empty while they lease it 
and do nothing with it. There is a lot to it.
    Senator Brown. Thank you. My wife said after the roundtable 
when she talked to you, she told me what a good father you are 
because----
    Mr. Baker. I have a son with spina bifida and my heart goes 
out to you. You seem like an awesome mother.
    Senator Brown. But as Mr. Parker was a very good father for 
his kids----
    Mr. Baker. A great father.
    Senator Brown [continuing]. My wife was convinced you are 
for your son, so thank you.
    Mr. Baker. Thank you.
    Senator Brown. Thanks to all three of you, and if you would 
like to stick around, certainly feel free to for the next 
panel. Thanks again for your openness and candor and service 
you all three give to your community. If you have anything else 
you want to add, you can, as I said, in writing give it to Joe 
Shultz and we will get it in the committee record. Thanks very 
much, Mr. Baker, Ms. Demko, and Ms. Farber. Thank you.
    We will bring the second panel up and take a two or three 
minute break if people want to do that, if people want to 
stretch or whatever.
    [Recess.]
    Senator Brown. Thank you all, and thanks for your patience. 
We went a little over on the first panel and I apologize.
    The second panel will include, from right to left, your 
left to my right, Mark Shuter, President and CEO of Adena 
Health System of Chillicothe, and I am sure he is so proud of 
all of this complex, as Mr. Metzger is. Mr. Shuter has worked 
in the health care field for more than 20 years. He is a native 
of Portsmouth. It is nice to see you. Thanks. Downtown 
Portsmouth is coming back. I was just there. They are doing a 
lot of interesting things in downtown Portsmouth. I was in a 
meeting in one of their old abandoned some building that they 
made into an apartment complex. It is really pretty neat.
    Sherrie Lanier is Development Director of the Ohio Valley 
Regional Development Commission in Waverly. She is a Southern 
Ohio native. She is filling in for the Executive Director of 
the Commission, John Hemmings II. We are glad to have her with 
us today.
    And Marsha Lewis is a Senior Research Associate at the 
Voinovich School of Leadership and Public Affairs at OU. She is 
a native of Jackson County and is getting her Ph.D. in 
education and research, is that right?
    Mr. Shuter, please keep to about 5 minutes, if you can, and 
I will do questions. Thank you.

    STATEMENT OF MARK SHUTER, PRESIDENT AND CHIEF EXECUTIVE 
        OFFICER, ADENA HEALTH SYSTEM, CHILLICOTHE, OHIO

    Mr. Shuter. [Off microphone.] Adena's vision is to be the 
best health care system in the nation, and what we feel is 
geography is not a determiner of quality and we are determined 
to provide the best health care for more than 500,000 people in 
our service area.
    Adena provides care through our two inpatient hospitals, 
our main campus, Adena Regional Medical Center of 237 beds, and 
then a 25-bed critical access hospital in Greenfield. We have 
additional campuses, a satellite here in Chillicothe, Jackson, 
and Waverly.
    Well, in our region, Chillicothe is considered the big 
city, and here at our main campuses, our services include open 
heart surgery, interventional cardiology, cancer care, 
minimally invasive hip surgery, spine surgery, and an after-
hours pediatric urgent care. Our medical staff of 250 gives our 
patients convenience and comfort in knowing they can receive in 
or near their home the primary care and specialty care that are 
common in metropolitan areas.
    Being the best means that Adena must continually expand our 
services and provide patients with up-to-date technologies and 
best practice medical care, and telemedicine is one of those 
areas I want to speak about because it has infinite 
possibilities. In fact, we have already witnessed this impact 
in our critical care newborn area, where through our 
partnership with Nationwide Children's Hospital in Columbus, 
and Adena's relationship with Children's is one of the first of 
a kind in Ohio, in Adena's maternity unit, we began utilizing 
in 2006 this unique capability of telemedicine with Nationwide 
Children's, where our neonatologists assist Adena pediatricians 
with clinical assessments via high-definition video 
conferencing. In just its first year, telemedicine reduced by 
half the number of newborns transferred to Columbus, and these 
families avoided the travel costs, overnight accommodations, 
and the stress of transfer and separation.
    In November 2007, we received from our Congressman Zack 
Space news of being selected to implement a $14 million Federal 
Communications Commission project for building a fiber optic 
network throughout our region. Then just last month, we 
received from your office, Senator Brown, news of the United 
States Department of Agriculture grant that will enable Adena 
to expand its telemedicine capability beyond the nursery to 
other hospitals in Southern Ohio. These grants will enable us 
to provide more of the best care to our patients in what is, as 
we have heard this morning, a medically underserved area.
    We are working with other health care systems through the 
Regional Health Care Information Organization and through the 
Appalachian Health Information Exchange. This is a voluntary 
association of health care providers that is developing an 
integrated health information system.
    We know that in order to provide this best care, we must 
continually expand and stay ahead of this curve, and there are 
several other information technology projects at Adena that we 
would like to inform you about that are critical to our 
patients.
    They are, first, an online portal that will feature the 
opportunity for patients to schedule their appointments and 
refill prescriptions. Patients will have the ability to access 
the information virtually anywhere through the Internet, and 
this is rolling out in the next 6 months.
    Our electronic health record, a collection of patient 
health information, includes progress notes, problems, 
medications, vital signs, medical history, immunizations and 
test results.
    Third is E-scribing, which enables health care providers to 
send prescriptions to pharmacies electronically and order 
refills. This will include bedside medication verification with 
scanners and hand-held devices to reduce medication errors.
    Fourth, telemetry equipment for home health patients that 
we can transmit test results directly to our physicians.
    Five, continuing advances in telemedicine through our 
partnerships with other hospitals in Columbus. Now we are 
focusing on a stroke patient care network with Riverside 
Methodist and maternal-fetal medicine with Ohio State 
University Medical Center.
    And then finally, an innovation to train and equip all 
volunteer emergency squads in Ross and Vinton Counties with 
satellite telemetry for electrocardiogram transmission from the 
squad of the emergency departments. Why satellite? Cell phones 
and radios in the hills are unreliable.
    Now looking to the immediate future for information 
technology and rural health care, here is what we need. I bet 
you thought that was coming. First is the FCC Rural Health 
Pilot Project mentioned earlier. This is an amazing example--
and again, that is the $14 million grant--of providing public-
private cooperation in broadband capacity in our region. The 
FCC is paying 85 percent of the costs while eligible health 
care providers provide the other 15 percent. Adena Health 
System, for example, will be stretched to pay our match when 
costs are incurred, but other less financially resourceful 
providers cannot afford the match. Thus, they will not connect 
to the network and this will be a major concern for 
implementation and adoption of technology where it is needed.
    Second, as we mentioned earlier, federally qualified health 
centers and independent rural practitioners must establish 
electronic health records. At the same time, their Federal 
reimbursements are diminishing. Many cannot afford the costs. 
We will help where we can, although as you know, we are 
restricted in some part by the Stark Act, but Federal and State 
assistance is needed to help them fund those records.
    Third, Federal funds would be well spent to help this so-
called door-to-balloon time for chest pain patients in rural 
areas nationwide. This is the time required to receive a heart 
attack patient from the door until they get their stents. If 
the hospital knows in advance the patient is having a heart 
attack, we can help intervene. We have proven that basic and 
intermediate EMTs can reliably attach these 12-lead EKGs to the 
patient, but the paramedic-level EMTs have long been permitted 
to do this under State-controlled scope-of-practice rules. But 
the trouble is, paramedics usually don't work on our volunteer 
squads and volunteer squads are the norm in rural areas. So 
grants are needed to help the training in this area and for the 
equipment in rural areas to provide this service.
    Finally, I would just like to say thank you for the 
opportunity to speak today about what we think information 
technology can do for rural health care, and this is an 
exciting and challenging time in health care. At Adena, we are 
committed to bringing this technology to our patients.
    [The prepared statement of Mr. Shuter can be found on page 
57 in the appendix.]
    Senator Brown. Thank you, and you have made huge process, 
it sounds like.
    Ms. Lanier, thank you. It is good to see you again.

STATEMENT OF SHERRIE LANIER, DEVELOPMENT DIRECTOR, OHIO VALLEY 
         REGIONAL DEVELOPMENT COMMISSION, WAVERLY, OHIO

    Ms. Lanier. My name is Sherrie Lanier. I am the Development 
Director for the Ohio Valley Regional Development Commission. I 
want to thank you for giving us the chance to be here today and 
testify to the importance of the USDA and other programs to 
rural Southern Ohio.
    We have a longer, more detailed written testimony that I 
have submitted to Joe and I am just going to, I think, talk 
about some of the challenges facing our counties and our 
communities as far as infrastructure and economic development.
    Ohio Valley Regional Development Commission is a regional 
planning and economic development agency that works with 12 
counties in Southern Ohio to direct Federal, State, and local 
funding resources to those communities, give technical 
assistance to the communities, to make some of these programs 
available, and help the communities implement them.
    We have a longstanding relationship with the USDA Rural 
Development Program. They have been integral in many, many 
projects throughout Southern Ohio because we seem to be kind of 
behind the eight-ball in many of our counties for a combination 
of reasons. In Appalachia, the poverty rate is higher. The 
unemployment rate is higher. Combine that with a lower per 
capita income, a lower median income. That means our 
communities have a much lower and limited tax base to work from 
when they are trying to provide utilities to their residents.
    The USDA programs, along with the Appalachian Regional 
Commission programs and Economic Development Administration 
programs have really been lifesavers for many of our 
communities in these rural counties. They really have nowhere 
else to go unless--you know, they could go the traditional 
route, in a sense, to get loans, but they would be the higher-
interest loans. If it is based on their ability to pay it back, 
sometimes they would not get it, these small villages. They 
don't have enough residents. But yet you have the residents in 
dire need of improved water--or there is access to water, 
access to sewer. Many of them have their own onsite sewer 
systems and they are failing if they have them in the first 
place.
    So it becomes--it is an economic development issue, but it 
is a health issue when you get into all of those things. It 
just--one thing builds on the other as far as needing to get 
some of these basic infrastructure programs in place.
    We have had success stories in the Village of Vinton in 
Gallia County, the Village of Highland in Highland County, new 
gravity-feed sewer systems that provided access to residents in 
those areas that they did not have it before. It may only be 
200 people, but those 200 people needed that for both health, 
safety, and development reasons.
    On the business and industry side, the city of Jackson, we 
worked with them, with the former Luigino's Plant, now Bellisio 
Foods, to expand their wastewater treatment plant. Luigino's 
wanted to do a plant expansion, but because of the increased 
food production, the wastewater treatment plant couldn't handle 
it. Four hundred new jobs were on the line, 1,000 existing 
jobs. They had the choice of going to Minnesota or somewhere 
else, taking everything, and the USDA with some other programs 
stepped in and we were able to help get them funding for that 
wastewater treatment expansion. Luigino's added 400 jobs and 
saved 1,000 jobs. That is just one big example of how these 
programs--how important they are.
    It is so important because one builds on another and 
depends on another. If we lose almost any of these sources, 
these small communities would have to either go the traditional 
route, which in today's market, many communities, they can't 
sell bonds. Nobody will take it on. And they can't get a loan, 
even if they were willing to pay the higher interest rates. If 
they could do that, then they are passing those rates on to 
consumers that can't afford them in this area.
    So in conclusion, I just want to again express the 
importance of the USDA Rural Development Programs to us in the 
area, both at the very basic community development level, and 
then taking it into an economic development level. Thank you.
    [The prepared statement of Ms. Lanier can be found on page 
43 in the appendix.]
    Senator Brown. Thank you, Ms. Lanier.
    Ms. Lewis, welcome.

STATEMENT OF MARSHA LEWIS, SENIOR RESEARCH ASSOCIATE, VOINOVICH 
   SCHOOL OF LEADERSHIP AND PUBLIC AFFAIRS, OHIO UNIVERSITY, 
                          ATHENS, OHIO

    Ms. Lewis. Thank you, Senator Brown, for the opportunity to 
address this committee on important issues in support of rural 
communities. My name is Marsha Lewis and I have worked at Ohio 
University's Voinovich School of Leadership and Public Affairs 
for 15 years. We have worked on many projects with USDA Rural 
Development and other Federal agencies and have a longstanding 
partnership with State Director Randy Hunt and many others 
throughout the agency.
    The work we do at Ohio University is in line with the 
mission of USDA Rural Development, to build partnerships and 
provide a broad set of services to improve the quality of life 
in rural areas. USDA Rural Development accomplishes this 
through a continuum of programs that help develop all of the 
crucial components of the infrastructure it takes to keep rural 
communities viable, foster economic growth, and compete 
globally.
    That continuum of services is what we focus on through 
programs like the Appalachian New Economy Partnership, which is 
the University System of Ohio program strengthening the 
region's competitiveness by focusing on the three critical 
pieces to economic growth: Education, local government 
capacity, and business development. Any solution must involve 
all three.
    We, for example, are currently working closely here with 
Ohio University-Chillicothe Dean Rich Bebee and a group of 
public and private sector entities, including Adena, on 
innovative economic growth strategies for this part of the 
region. Our role is to provide the best available economic and 
demographic data so that the communities can make strategic 
decisions and target their efforts. We do almost all of our 
work through partners, through projects like the EDA-funded 
Community Economic Adjustment Program targeted at places like 
Jackson County that have suffered because of auto industry 
downsizing.
    Through a project called the Mayor's Partnership for 
Progress which Chillicothe Mayor Joe Sulzer started a number of 
years ago, the Voinovich School brings together mayors and city 
managers from cities and villages throughout Appalachian Ohio 
to share information and resources, meet collectively with 
Federal and State partners on a regular basis, and tackle 
economic and community development challenges faced by 
municipalities.
    So much of our work is in conjunction with our Federal and 
State and local partners and much of it involves direct 
operational assistance to help businesses grow at the local 
level. With OVRDC, OSU Extension, and others, we identify 
startup businesses and existing businesses that have high 
growth potential and develop long-term consulting engagements 
to assist in making improvements and making them sustainable. 
Since 2005, this partnership has provided assistance to over 
1,700 businesses and entrepreneurs and assisted businesses in 
securing $62 million in new loans, $80 million in government 
contracts, $3.5 million in funds from individual investors, and 
$8 million in venture capital funding, venture capital funding 
that was not available in most of the region before this 
partnership began.
    USDA Rural Development has historically been a critical 
partner in efforts to provide a comprehensive continuum of 
assistance to support economic growth. Through the support of 
the Voinovich School's collaborative efforts, like the 
Appalachian Ohio Regional Investment Coalition, USDA has 
invested critical resources, time, and expertise to help 
develop strategies for Appalachian Ohio. This past June, the 
Voinovich School, USDA Rural Development, and the U.S. Small 
Business Administration and the Treasury cosponsored a lender 
seminar focused on USDA guaranteed lender programs and how 
these loans can support local business growth.
    As an important component of the direct assistance to 
businesses in Appalachian Ohio, the Voinovich School and many 
partners are in the second year of TechGROWTH Ohio, a unique 
partnership focused on early stage businesses and entrepreneurs 
in technology sectors. In mid-October, just this past month, 
TechGROWTH gave the first pre-seed funding check to a Southeast 
Ohio-based interactive digital media company with a vision for 
social networking capacities via the Internet. With each 
milestone, this firm will receive further joint funding from 
TechGROWTH in technology-based economic development.
    In many Appalachian Ohio communities working hard to move 
forward, the technology infrastructure is still lacking. Yet 
technology infrastructure has become a basic utility without 
which communities cannot remain viable. This is why USDA Rural 
Development's work to expand broadband access is so important 
to the region.
    In addition, the agency's support of renewable and 
alternative energies, such as Hocking College's Advanced Energy 
Campus in Logan, is an important project that will help rural 
Appalachia be competitive in this emerging market.
    This facility here, the PACCAR Medical Education Center, is 
a prime example of that collaborative work. The Voinovich 
School is currently conducting some research on college access 
for Appalachian Ohio students. In a survey of over 1,200 of 
last year's high school seniors in the region, close to 30 
percent of the respondents wanted to enter a nursing or allied 
health field. With health care targeted by both Ohio Department 
of Development and the Ohio Board of Regents as one of the 
State's high-growth industries, facilities such as this provide 
critical training opportunities to build the type of workforce 
vital to Ohio's current and future economic viability.
    Efforts to develop the health care sector is a prime 
example of why the work of USDA Rural Development and its 
partners is crucial and why development projects are not 
discrete, but interconnected. Keeping our rural communities 
viable to continue to attract professionals, such as those in 
the health care field, is hard work and costly.
    The building blocks for any kind of development involve 
solid physical infrastructure. Many communities in our region 
are in need of the first line of water or wastewater pipe. 
Others, such as many of our small cities, have aging 
infrastructure that no longer meets State and Federal 
requirements. Economic hardships that hit families throughout 
the region make it painful, if not impossible, to raise utility 
rates to the level necessary to upgrade or in some cases even 
maintain the critical infrastructure needed for economic 
development and make communities that people want to live, 
relocate to, and stay in.
    Our region needs the partnership and assistance provided by 
these programs and we respectfully ask that USDA and other 
Federal agencies continue and expand assistance to rural 
communities so that we rural citizens earn decent wages, raise 
healthy families, and live in communities that provide great 
quality of life for everyone. Thank you.
    [The prepared statement of Ms. Lewis can be found on page 
49 in the appendix.]
    Senator Brown. Thank you. Thanks very much, Ms. Lewis.
    Mr. Shuter, talk to me about--thanks to all of you, the 
testimony from all three of you. Almost everybody here has 
talked about the importance of broadband. Give me the 
intersection of--explain to me the intersection of what we do 
with broadband, with telemedicine, and with FQHCs in Southeast 
Ohio, and really anywhere, but how we--I don't think when 
people talk about broadband they think enough about 
telemedicine. I also think that as this whole hospital and 
particularly what Mr. Metzger and all of you are doing now 
here, PACCAR is such a jewel for Appalachia, and with the 
proliferation of FQHC, it just seems that we don't--would you 
just explain the synergism of it to me, if you would, where we 
come together on all of this?
    Mr. Shuter. Well, I think it is important to note that, I 
mean, the grant to build this network throughout the region, it 
is pretty much a ten-county area, and again, it is not going to 
be exclusive for health care. This will be available for 
industry, business, government all to be able to tap into it.
    But relative to health care, the big shift here is we are 
in roughly in another year and a half rolling out all of our 
electronic record, including these portals that will have the 
ability to now connect at home. If you think through that 
connection at home, the average person over age 65 has roughly 
15 medications and so they are going to have an electronic link 
to their primary care doctor, their pharmacy, whoever their 
health plan vendor is, as well as gain access directly for 
appointments, but more importantly, will be able to get 
information back to the practitioners to maintain health 
status.
    Roughly, if you look, we do a million encounters a year, 
roughly--the studies are 20 percent of the population is 
generating 80 percent of that through chronic health care 
conditions. So the vision here, the bigger issue is long-term, 
is really regionally along with our partnership with Ohio 
University and the RIO is to really understand this in the 
chronic disease population and find ways through the Internet 
to keep people at home.
    We partner with federally qualified clinics in almost all 
of our communities we serve. The key thing is we still have 
that little bridge gap of getting them connected, but the key 
thing is to get them access to broadband. Second, help them 
adopt electronic health records, and again for the same 
purpose. As homes get more online with connected to the ring, 
again, to be able to provide that health status, shift that 
service away from having to go to a clinic to be able to get it 
in their home.
    Relative to the synergy of this building, we will be having 
national speakers coming in several weeks, again, providing the 
opportunity for health care providers to bring updates, and 
this topic would be cardiology, but we also have the capability 
through this building to connect into that ring, and again, we 
are going to be connected to provide more education. Wright 
State does our nursing school. We are connected such that we 
can do remote classes. And so I think the opportunities 
relative to the education system, I think are kind of infinite, 
as well.
    The particular niche around telemedicine, there is, again, 
more and more. We have the nursery coming online. Stroke will 
be coming online. There is now increasing use of robots that 
will be able to be steered remotely because of all of this 
connection by a specialist really around the world to be able 
to provide specialty consultations, either in remote hospitals 
or in clinics and eventually at home.
    Senator Brown. Thank you.
    Ms. Lanier, you had given the example of the infrastructure 
of what you were able to do with USDA and others on preserving 
those jobs and expanding the jobs. You mentioned Gallia County 
and Highland County, I think. Give me an example of how--we all 
talk about infrastructure, whether it is broadband or whether 
it is highways, roads, bridges, sewer systems, whatever. Give 
me specifically what USDA's involvement, what infrastructure 
did in one or both of those communities, if you could.
    Ms. Lanier. Sure. In the----
    Senator Brown. And what it meant to the residents or to 
economic development down the line.
    Ms. Lanier. In both cases, in the Villages of Vinton, which 
is in Gallia County, and Highland, which is in Highland County, 
they did not have any sewage treatment. All the residents had 
their own septic tanks, many of which were failing and were 
discharging either barely treated or raw sewage into either the 
storm sewers or into area creeks. The funding allowed them to 
run sewer lines and build, in one case, in Vinton, to build a 
treatment plant. In Highland, they basically just built the 
sewer lines and pumped it to the Village of Leesburg, to their 
treatment plant. In that case, they had an agreement with them.
    Senator Brown. Can you give an example of where it meant 
some kind of economic development? I mean, you gave the big 
example. Is there something else that you have done that----
    Ms. Lanier. In the Village of Highland, there were four 
businesses that were able to connect to the system----
    Senator Brown. What kind of businesses were those?
    Ms. Lanier. Pardon me?
    Senator Brown. What kind of businesses were they, retail?
    Ms. Lanier. Retail, yes. Retail and service.
    Senator Brown. OK.
    Ms. Lanier. They were able to connect to the system and 
retain the jobs that they had there in the village and keep 
those----
    Senator Brown. What kind of sewer rates are they paying in 
Vinton?
    Ms. Lanier. I don't really know the exact rate. I know, 
because of the low-interest loans and the grants, it is the 
absolute cheapest that they can make available.
    Senator Brown. Do you know how it compares to people in the 
city of Chillicothe or in the city of Hillsboro or----
    Ms. Lanier. Much cheaper than the city of Chillicothe.
    Senator Brown. OK. Thank you.
    Ms. Lewis, one of the roundtables I did, it was at the 
Voinovich Center and I was really struck by the entrepreneurial 
activity of Southeast Ohio and especially right there. They 
talked about Hocking and the alternative energy. Talk to me 
about what we do to make this. I have noticed around Ohio we 
have in this State now, we are in the top, I believe, five in 
the country in investment in solar energy in terms of 
businesses and we are in the top five in the investment of wind 
turbines and it is sort of an untold story and an unknown story 
and it is going to get bigger. We have the largest solar 
manufacturer in the country near Toledo. What struck me about 
what was going on in Athens and Hocking was how much was going 
on with installation of solar panels and all that.
    How do we make this region, from your work in development 
and particularly in economic development, how do we make this 
region--pull that together to really get these--to help these 
businesses to see more businesses grow and to sort of fan out 
outside of just Athens and Hocking, where I think most of the 
energy has been, in alternative energy specifically?
    Ms. Lanier. Right, and I think alternative energy, we all 
know that virtually every community in the country is looking 
to alternative energy as sort of the next wave of economic 
growth, but in our region in particular, which has a long 
history of an energy-based economy, it makes particular sense. 
I think the work of the universities, the work of Hocking 
College and the work of Ohio University in looking at these 
things is certainly what is making that cultivate in that 
particular part of the region.
    But I think, again, that continuum of services and that 
access to capital, getting the venture capital in the region 
and getting people who have ideas and communities that have the 
natural resources--for instance, in Jackson County, looking at 
how to overcome the downsizing and the Meridian closure and the 
other things that have hit the county hard, what are the 
natural resource-based products that we have there that would 
lend themselves to, for instance, solar panel production, and 
how can we change over that manufacturing to something like 
that with the silica and the sand and the clay and the things 
that you need for some of those things?
    So I think it is that continuum of services, everything 
from access to all kinds of capital at every stage of those 
businesses' lives, whether that be angel investment, venture 
capital, and then also some sophisticated business support 
services that we don't have in this region. Sometimes access to 
special patent attorneys or access to specialized labs to bring 
some of these things to fruition and to production, I think are 
important.
    But also, kind of a regional approach to thinking about 
what do we want to pursue? What do the data show that we could 
support? And how do we target that best and how do we do that 
regionally? We talk a lot about regionalism, but that is hard 
to do. It is hard to bring local leaders together with these 
State and Federal agencies and really focus and be strategic 
and use the data to say this is something that we should pursue 
and let us pool our resources to figure out how to do that.
    So I think not only business development assistance, but 
also the work with governments and local leadership on how to 
do that and how to take a regional focus, to grow that out of 
just the little, sort of the core area where it is now and use 
some of the manufacturing and the natural resource base that we 
have here to be able to grow that.
    Senator Brown. How old is the Hocking program?
    Ms. Lanier. It is fairly new, within the last couple of 
years. OU's Coal Research Center has been around for a while, 
but just now getting infused with capital so that they can do 
some of that research. We have got other things going on, an 
engineering professor at Ohio University looking at ammonia-
based fuel cell development and even starting a little bit of 
some prototype manufacturing of that. So those things have--
people have been thinking about them for a number of years, the 
last 5 years or so, but just in the last couple of years, they 
have really started to take off.
    Senator Brown. Thank you.
    Let me ask one question of each of you. Take a couple of 
minutes to answer it, if you would. The same question of all 
three of you, and then we will adjourn. If there is one thing 
that you could ask my office or the Federal Government to do, 
other than send you millions of dollars, but if there is one 
thing that you could ask us to do, what would it be? I call on 
you first so that they have the advantage of thinking about 
this answer longer than you do, but Mr. Shuter, give me one 
major thing----
    Mr. Shuter. You have taken the No. 1 off the table.
    Senator Brown. Yes, right.
    Mr. Shuter. You know, I think when you go through our list 
of issues, I think this issue of the connectivity--well, first 
of all, the grant that we received to build the broadband 
network is huge, but still the issues around the edges of 
helping this region, helping the organizations that are 
struggling to pay that match of 15 percent to connect to that 
broadband network, which will take some loosening of the 
regulations.
    And second, I think there will be needed some assistance 
for especially the smaller providers, the federally qualified 
clinics, to help them adopt the full electronic health record, 
which is going to need to happen for us really to--still the 
issue of reducing utilization while improving quality is going 
to be the key challenge in front of health care for the next 
decade.
    Senator Brown. OK, good answer.
    Ms. Lanier.
    Ms. Lanier. OK. Well, aside from more money, just the--if 
we could lessen some of the bureaucratic strings or 
restrictions from the various agencies or programs as to what 
things can be used for, how it can be used----
    Senator Brown. Give me one example.
    Ms. Lanier. Well, with--say the Economic Development 
Administration funding, and theirs and the USDA in some of 
their cases are very similar. The funding can only go to 
essentially a public entity, is how it would--a city, a county, 
a port authority, something like that. Many of the cases in our 
area, I was Economic Development Director in Jackson County for 
several years, so I am used to dealing with this firsthand. The 
land in our industrial parks are mostly private. So when we go 
to try to get funding to build access roads, to build sewers, 
to put water lines out, we can't access these funds.
    Senator Brown. Ms. Lewis.
    Ms. Lewis. Well, I think one of the key priorities has to 
be relieving the stress on local communities and continuing to 
infuse money into the region for infrastructure development. 
And technology infrastructure certainly is a very key 
component, but also the physical infrastructure components that 
make communities viable, that make communities places where 
people want to live and can live and that are healthy and 
vibrant.
    Our local communities, our counties, our small cities that 
have aging infrastructure are really up against a wall in terms 
of trying to upgrade that, trying to replace that, trying to 
meet new mandates, new State and Federal mandates, and really 
need help from the State and Federal Government in order to be 
able to provide the basic infrastructure that is the building 
block for any other economic development.
    I think relief in that, public works, basic infrastructure 
projects, and more support from the Federal Government to be 
able to fund those and make it so that the rates are livable 
for the people in Appalachian Ohio, I think is really crucial.
    Senator Brown. Thank you.
    Thank you all. Thanks for your comments, your provocative 
thoughts, and feel free, as I said, to submit in the next few 
days anything additional. And anyone else here that feels that 
they want to submit any information to us can do the same. I 
appreciate that.
    Again, Mr. Metzger, thank you for hosting this at your 
beautiful facility. I look forward to coming here many times in 
the future.
    The hearing is adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned]
      
=======================================================================


                            A P P E N D I X

                            October 23, 2008



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 48539.001

[GRAPHIC] [TIFF OMITTED] 48539.002

[GRAPHIC] [TIFF OMITTED] 48539.003

[GRAPHIC] [TIFF OMITTED] 48539.004

[GRAPHIC] [TIFF OMITTED] 48539.005

[GRAPHIC] [TIFF OMITTED] 48539.006

[GRAPHIC] [TIFF OMITTED] 48539.007

[GRAPHIC] [TIFF OMITTED] 48539.008

[GRAPHIC] [TIFF OMITTED] 48539.009

[GRAPHIC] [TIFF OMITTED] 48539.010

[GRAPHIC] [TIFF OMITTED] 48539.011

[GRAPHIC] [TIFF OMITTED] 48539.012

[GRAPHIC] [TIFF OMITTED] 48539.013

[GRAPHIC] [TIFF OMITTED] 48539.014

[GRAPHIC] [TIFF OMITTED] 48539.015

[GRAPHIC] [TIFF OMITTED] 48539.016

[GRAPHIC] [TIFF OMITTED] 48539.017

[GRAPHIC] [TIFF OMITTED] 48539.018

[GRAPHIC] [TIFF OMITTED] 48539.019

[GRAPHIC] [TIFF OMITTED] 48539.020

[GRAPHIC] [TIFF OMITTED] 48539.021

[GRAPHIC] [TIFF OMITTED] 48539.022

[GRAPHIC] [TIFF OMITTED] 48539.023

[GRAPHIC] [TIFF OMITTED] 48539.024

[GRAPHIC] [TIFF OMITTED] 48539.025

[GRAPHIC] [TIFF OMITTED] 48539.026

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            October 23, 2008



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 48539.027

[GRAPHIC] [TIFF OMITTED] 48539.028

[GRAPHIC] [TIFF OMITTED] 48539.029

[GRAPHIC] [TIFF OMITTED] 48539.030

[GRAPHIC] [TIFF OMITTED] 48539.031

[GRAPHIC] [TIFF OMITTED] 48539.032

[GRAPHIC] [TIFF OMITTED] 48539.033

[GRAPHIC] [TIFF OMITTED] 48539.034

[GRAPHIC] [TIFF OMITTED] 48539.035


</pre></body></html>
